COCKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 21-118

APPLE, INC.,
Petitioner,
Vv.

E-Mail Address:
contact @cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

OPTIS CELLULAR TECHNOLOGY LLC,

OPTIS WIRELESS TECHNOLOGY, LLC,

AND

UNWIRED PLANET INTERNATIONAL LIMITED.

Respondenis.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of August. 2021, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE COMPUTER & COMMUNICATIONS
INDUSTRY ASSOCIATION AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days, Packages were

plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOSHUA LANDAU
Counsel of Record
COMPUTER & COMMUNICATIONS
INDUSTRY ASSOCIATION
25 Massachusetts Ave. NW
Suite 300C
Washington. DC 20001
(202) 470-3622
jlandau@ccianet.org,
Counsel for Amicus Curiae

Subscribed and sworn to before me this 27th day of August, 2021
1am duly authorized under the laws of the State of Nebraska to administer oaths.

aheoo Oudraw-h, Ghia

 

 

) GENERAL WOTARY-State of Nebraska
RENEE J. GOSS.
My Comm. Exp. September 5, 2023

Notary Public

Affiant 41355
Counsel for Apple Inc.

Catherine M.A. Carroll

Wilmer, Cutler, Pickering, Hale and Dorr LLP
1875 Pennsylvania Ave NW

Washington DC 20006

(202) 663-6000
catherine.carroll@wilmerhale.com

Counsel for Optis Cellular Technology, LLC,
Optis Wireless Technology, LLC, and Unwired Planet
International Limited

Jason Sheasby

H. Annita Zhong

Irell & Manella LLP

1800 Avenue of the Stars

Los Angeles, CA 90067

(310) 203-7096 / jsheasby@irell.com
(310) 203-7183 / hzhong@irell.com

Counsel of Record for Intervenor Andrew Hirshfeld, Performing
the Functions and Duties of the Under Secretary of

Commerce for Intellectual Property and Director of

the United States Patent and Trademark Office

Brian H. Fletcher

Acting Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

(202) 514-2217
